Supreme Court, U.S.
FILED

N

MAY 3 0 2021

.31-57Q

OFFICE OF THE CLERK

ORidlAL
IN THE
SUPREME COURT OF THE UNITED STATES

Lazaro Fernandez

— PETITIONER

(Your Name)
vs.

Jonathan W. Blodgett

— RESPONDENT(S)

ON PETITION FOR A WRIT-OF CERTIORARI TO

First Circuit Court of Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Lazaro Fernandez
(Your Name)
Shirley, Medium
P.O. Box 1218
1 Harvard'"Road- •
(Address)
Shirley, MA 01464-1218
(City, State, Zip Code)

none
(Phone Number)
-7-

QUESTION(S) PRESENTED
Whether it was error for the Court of Appeals to
uphold the District Court in denying to order testing of
the biology found at the crime scene, the alleged victim's
panties in the crotch area, wherein the prosecution stated
there was no male DNA biology, but conceded in the courts
below that there was saliva found.

-8-

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

-9-

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

First Circuit Court of Appeals Order dated
April 28, 2021

APPENDIX B

United States District Court Order filed November
8, 2019

APPENDIX C United States District Court Order filed
July 18, 2019
APPENDIX D
APPENDIX E
APPENDIX F

-10-

TABLE OF AUTHORITIES CITED

CASES
PAGE NUMBER
Dist. Attorney's Office for Third Judicial Dist.
22,* 24
v. Osborne, 557 U.S. 52 (2009)
Exxon Mobil Cor ^2065^aUC^ ^as^-c Indus. Corp.
23, 25
544 U.S. 280
District of Columbia Court of Appeals v. Feldman,
25
460 U.S. 462 (1983)
Rooker v. Fidelity Trust Co. > 263 U.S. 413 (1923)
25
Skinner v. Switzer, 562 U.S. 521 (2011)
21, 24, 25
Wade v. Brady, 460 F.Supp.2d 226 (Dist. Mass. 2006)
25
Wade v. Monroe Ct. DA Civil No. 2-15-cv-00584 (2019)
22
Wagner v. Dist. Attorney Allegheny Cty. Civil No.
22
11-762, LEXIS 79951 (2012)

STATUTES AND RULES
M.G.L. c. 278A
28 U.S.C. 2254
42 U.S.C. § 1983
Rule 30
Federal Rule of Civil Procedure 8 (a)(2) ,

21
22, 24
21s 23,24
22
24

OTHER
21, 23, 25

Rooker-Feldman Doctrine

-11-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _A
the petition and is

to

. [ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix _b
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest, state court to review the merits appears at
Appendix______to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the____
appears at Appendix__

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
• -12-

to

JURISDICTION

[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was April 28. 2021
[x] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including __
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
. The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______.
[ ] A timely petition for rehearing was thereafter denied on the following date:
---- :---------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including 1
(date) on
(date) in
Application No. _ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-13-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Fifth Amendment, U.S. Constitution
Sixth Amendment, U.S. Constitution
Fourteenth Amendment 5 U.S. Constitution
Title 28 U.S.C. 1331 and 1343
Title 42 U.S.C. 1983 et seq
Title 28 U.S.C. 1254(1)

-14-

STATEMENT OF THE CASE
On November 22, 2006, the complainant was living with
her

mother, two sisters, and a brother, as well as her

mother's boyfriend, the co-defendant in this matter. He
is Cardoza, and.they all lived together in Lawrence,
Massachusetts. The complainant was 14 years of age at the
time, and attended a school that was five to ten minutes
walk from her.home. She found co-defendant Cardoza easier
to speak to than her mother and talked to him about school,
boys and friends. She had met his friend, Lazaro Fernandez,
the petitioner in the instant matter and had been to his
home at a family cookout.
On November 22, 2006, the Wednesday before Thanksgiving,
the complainant was home preparing to walk to school. Her
mother and siblings left and Cardoza asked her to skip
school. Cardoza went to the store. When he came back to
the living room about twenty-five to thirty rminutes later,
he told her that he did not like that she was "hanging
out" with the guys and that she should start using them
for money. He suggested that she "mess around" with an
older man who had money. He also explained to her what
an orgasm was. He asked her to follow him into his bedroom.
In the bedroom, he locked the door. He asked her to relax
and then touched her breasts and licked her hand, neck
and ear. He also touched her vagina over her clothes. He
licked to top of her breasts. He said he wanted to have
-15-

sex with her in her mother's bed

but she said no. He said

okay, and she walked into the living room.
While_.she was in the living room, Cardoza came and
told her not to act suspicious around her mother. He went
back into the bedroom and called her. He asked her to lock
the door., and when she turned around

he pulled his pants

down. She saw his penis with two tatoos on it that said
"Kim" and "lick it me." She then went to her room and took
off.her shoes. She went back into the living room and asked
Cardoza for money. He gave her money and told her to call
Lazaro Fernandez and ask him for forty dollars.
When Lazaro Fernandez answered, she read him a letter.
He asked her if he could take a naked picture, if she would
give him a "blow job" and if she would sleep with him,
to which she answered no. Cardoza told her he was leaving
because he did not want to be there when Lazaro Fernandez
came. This is alleged by the complainant.
The complainant testified that the defendant came
over five minutes after the call. She heard a knock at
the door, but when she opened the door to her apartment
no one was there. She then went downstairs to check and
he came in. They were both standing in the staircase. He
asked her if she would let him take a picture and she said
no. He pulled down her shirt and bra, told her to hold
it and took a picture with his phone. Her breasts were
exposed. Xhxssis more testimony of the complainant..
She said Lazaro Fernandez then undid her pants and
-16-

lowered her underwear. He took a picture of her vagina,
and "tried" to lick her. The complainant testified that
he licked the top but she was backing away.
The first f loor;.neighbor, Harves Diaz, walked in and
said hello to her. Diaz testified that he walked into the
stairccase and saw the complainant with a man.
Lazaro Fernandez is claimed to have told the complainant
that he would give her forty more dollars if she was willing
to have sex with him, but she said no. She then testified
that Lazaro Fernandez left and she went upstairs.
The next morning, Thanksgiving, the complainant testified
she told Cardoza that she was going out to buy clothes.
When she left, she called a friend, Tanari

to pick her

up. She told her friend that there was stress in the house
and she needed a place to stay and that something had happened
betwen her and her stepfather.
Tanari and her sister picked her/up. She told them
that something had. happened with her stepfather and his
friend. When they got to Tanari's house, she told her that
something had happened. She stayed there a couple of hours.
Tanari's mother then drove her to Jesus Rodriguez's house.
She/ stayed with Jesus Rodrigurez until Sunday.
The complainant testified that Jesus was her friend,
and became her boyfriend months later. The complainant
.later testified that she had mentioned her boyfriend, J.R.
an 18 year old at Lawrence High School

at her initial

interview with police, but that J.R. was not Jesus Rodriguez.
-17-

She testified that she did not know J.R.

name despite

dating him for a couple of months.
LThe police searched Lazaro Fernandez's phone, but
it did not contain any pictures of the complainant.
In September of 2006, two months prior to the time
of the allegation, the complainant and her family were
involved with the Department of Social Services as a result
of allegations that the complainant's mother had assaulted
her. That same month, her mother also filed a CHINS petition
at juvenile court. That is a petition stating that a child
is in need os social services intervention. Also, in September
the complainant began attending after school programs.
Prior to the date of the allegations, the complainant
had left her home on three occasions, she had lied to her
mother about where she was going. On those occasions, she
lied to her mother about where she was going and as a result,
her mother punished her by taking away her privileges and
becoming more restrictive and controlling. At the time,
she argued with her mother frequently. In the fall of 2006,
the complainant's mother was called to school and to bring
a change of clothes after the compainant left her. apartment
and changed clothes at school and her mother's negligee
was found in her backpack. The complainant had issues that
fail with absences from school programs, and she. was home
watching her sister's which she did notllike to do.
Before the incident, her mother had a rule that the
complainant could not have friends over that she and Cardoza
-18-

*)

did not know. The complainant violated that rule and was
caught by Cardoza speaking-to a boy in the middle of the
night from her window. She had spoken to this man on the
phone previously on a two-way call, but did not know him.
She had given him directions to her home. Her mother and
Cardoza had changed the phone number at the house because
she had given the number to too many people who were calling
often.
She told the social worker that she did not want to
live at the house or with her mother.
On October 26, a month prior to the allegations, she
was suspended from the inner city program for a serious
violation of the rules. Her mother grounded her. She threatened
to run away. She also said that her mom called the police,
and*she was.going to find her dead. Her mother took the
complainant to Lawrence Hospital where she told them that
she was just angry at her mom.
Lazaro Fernandez presented a number of witnesses in
support of his alibi defense. This evidence included testi­
mony that he was at work the morning of the incident and
that the Commonwealth's, withess Harves Diax, was in school
and could not have seen the complainant that morning.
In addition, Armand Hyatt.,, an attorney for Lawrence
Community Works, testified regarding records that he brought
pursuant to a subpoena for Movement City, the Youth Division
of Lawrence Community^ Works. He testified that the complainant
was suspended on October 26, 2009.
-19-

Paul Zambella testified that he was the forensic
scientist who examined the complainant’s underwear. He
testified that no saliva was found.

+

i

\

v
y

' 201

REASONS FOR GRANTING THE PETITION
The petition should be granted to allow Lazaro Fernandez
to return to state court and collaterally argue his appeal
wherein by the use of DNA testing results, he would.be
able to show that he is innocent of the charge for which
he is presently imprisoned. And, there is precedent from
this court that militates in favor of allowing this petition
and ordering DNA testing so that Lazaro Fernandez may return
to state court and prove he is actually innocent of the
crime charged.
Upon review and reflection, it is clear that the holding
of this court in Skinner v. Switzer

562 U.S. 521 (2011)

is controlling and extremely similar to the situation Lazaro
Fernandez presents in the instant action. In Skinner, supra,
this Court reported that Skinner had twice attempted to
obtain DNA testing under thethen existing Texas law and
been denied. So too, in the instant case, Lazaro Fernandez
has twice sought DNA testing under the only existing Massa­
chusetts law, the only law available to Lazaro Fernandez,
and twice been denied pursuant to M.G.L. c. 278A.
Probably answering some questions that might be put
forth by the Commonwealth, Skinner, Supra, held inter alia,
that seeking DNA testing in a 42 U.S.C. § 1983 action is
cognizable under the statute; it is a right recognizable
under the Fifth and Fourteenth Amendments to the United
States Constitution; the Rooker-Feldman doctrine does not
-21-

bar this action because Lazaro Fernandez is not challenging
the state court decision itself; and, this action is not
the equivalent of a habeas corpus action because Lazaro
Fernandez is not seeking release from prison or the shortening
of his sentence, he is merely seeking prospective injunctive
relief not to the biology from the crime scene to have
DNA testing.so that he can prove he is actually innocent
of the crime for which he has been convicted, and when
he get the favorable DNA test results, he will then have
to initiate a new and distince proceeding in state or federal
courts under a different statute seeking relief, Rule 30
in the state court or habeas corpus in the federal court,
and therefore this action is not the same as what has been
previously filed and the results, although intended for
use, will not affect Lazaro Fernandez's incarceration.
In Wade v. Monroe Gt. DA, Civil Action No. 2:15-cv00584 (D. Penn., May 13, 2019), the court held that relying
upon this Court's decision in Dist. Attorney's Office for
Third Judicial Dist; v. Osborne, 557 U.S. 52 (2009) as
well as Skinner v. Switzer, 562 U.S. 521 (2011), that:
"Here, as in Osborne, we find that Wade
has an analogous state-created liberty
interest in demonstrating his innocence
in the context o.f post-conviction pro­
ceedings with appropriate evidence. See
Wagner v. Dist. Attorney Allegheny Cty.
Civil Action No. 11-762, 2012 U.S. Dist.
LEXIS 79951, 2012 WL 290093, at *8
(W.D. Pa. May 21, 2012)"
Consequently, post Osborn and post Skinner, the federal
courts have dealt with the issues and have granted relief
-22-

in the form of an order for DNA testing. Just as in the
Lazaro Fernandez case pending before this court, the Wade
court ordered relief.
In the current pleading, Lazaro Fernandez submits
that the Rooker-Feldman doctrine bars review by this court
of any state court decisions for legal error, as established
most recently by this Court in Exxon Mobil Corp. v. Saudi
Basic Indus. Corp., 544 U.S. 280 (2005), that holding does
not bar this Court from allowing relief as presented by
Lazaro Fernandez for exercising his federal constitutional
rights, stated another way, any state court holdings were
the state v.

.Fernandez, and this federal holding is Fernandez

v. Blodgett, a totally different pleading that is not an
appeal from a state court adverse holding. As the Wade
court held, Lazaro Fernandez too is entitled to press his
constitutional claim under 42 U.S.C. 1983, et seq. for
the relief he seeks.
It is true that Lazaro Fernandez's claim is a narrow
one, just as stated in Wade, however, as the court held
in Wade:
"The question properly before us is a
narrow one. Whether the Pennslyvania
post-conviction DNA testing statute as
construed by the state courts in Wade's
case, ’offends some principle of justice
so rooted in the traditions and con­
science of our people as to be ranked
as fundamental, or transgresses any
recognized principle of fundamental
fairness in operation.' Osborn, 557
U.S. at 69."
)

-23-

The court in Wade went on to say:
"But weighing the record before us, we
nevertheless find that the particularand peculiar-construction of the state
post-conviction DNA testing statute
applied by the PCRA court in Wade's
case was fundamentally unfair."
So, too, in Lazaro Fernandez's case, the application as
applied is fundamentally unfair. Relief was granted in the
Wade case- and relief should be granted in the Fernandez
case.
The District-Attorney1s Office for the Third Dist.
v. Osborn, supra, left unresolved the question of whether
a convicted state prisoner seeking DNA testing of crimescene evidence may assert that claim in a civil rights
action under 4-2-U.S.C. § 1983 action or may assert the

.

claim in federal court only in a petition for a writ of
habeas corpus under 28 U.S.C. § 2254. The Skinner, supra,
decision has now resolved that question in favor of the
state prisoner seeking access to biological evidence from
the crime-scene for the purpose of DNA testing to prove
actual innocence, and the Wade court embraced that holding
and allowed relief in the Wade case.
And, pursuant to Federal Rules of Civil Procedure,
specifically 8(a)(2)

Lazaro Fernandez is only required

to present a plausible "short and plain" statement of his
claim, not an exposition of his legal argument. And,
Lazaro Fernandez has presented his argument supra, that
he has twice bbeen denied access to the crime-scene biology
-24\

for the purpose of DNA testing to prove he is actually
innocent of the crime for which he has been convicted of
in state court. And, just as Skinner’s counsel did not
challenge the prosecution's conduct or the court decision,
so too, Lazaro Fernandez likewise challenges only Massachusetts
post-conviction DNA statute "as construed” by the Massachusetts
courts.
The Rooker-Feldman doctrine does not bar Lazaro Fernandez’s
suit. This Court has applied the doctrine only in the two
cases from which it takes its name. Rooker v. Fidelity
Trust Co. ..L 263 U.S. 413 (l9>2-3) and District of Columbia
Court of Appeals v. Feldman, 460 U.S. 462 (1983) as explained
in Exxon Mobile Corp. v. Saudi Basic Industries Corp, 544 U.S.
280 (2005). All of this is contained in the Skinner, supra,
opinion.
Although Wade v. Brady, 460 F.Supp.2d 226 (D.Mass.
2006) predates the Skinner, supra, case, it is a major holding
of Massachusetts litigation in that forum, and has now
been affirmed in the Wade case most recently in the Third
Circuit. The right to DNA testing of crime-scene evidence
was recognized in the Massachusetts Distrct -Court as early
as 2006 as noted in the Wade case.
Lazaro Fernandez's sole remedy presently is to solve
the crime for the Commonwealth of Massachusetts. This he
atbemptds to do, but the Commonwealth, its. agents courts
have not been willing to solve the crime, instead blocking
Lazaro Fernandez's attempts to obtain DNA testing of the
-25\

crime-scene biology in this matter, that of the underwear
of the alleged victim. Lazaro Fernandez has claimed an
alibi defense, he was at .-work the day of the incident,
he is accused of taking pictures of the victim on his phone,
but when police searched his phone, there were no pictures,
and the veracity of the victim has already been reduced,
as she told stories in the past that turned out to be less
than truthful. Thus, in the instant matter, Lazaro Fernandez
submits that DNA testing of the biology of the alleged
victim's underwear will exclude him and show the untruths
that the alleges has perpetrated upon the Commonwealth,
its agents and courts as well as Lazaro Fernandez.

-26-

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

May 30, 2021

-27-

